U N I T E D S T AT E S G O V E R N M E N T P R I N T I N G O F F I C E

                        O ffice of I nspector G enera l




    Semiannual Report
          to Congress




                      April 1, 2007 through September 30, 2007
The U.S. Government Printing Office                      The Office of Inspector General

For well over a century, the mission of the U.S.         The Office of Inspector General (OIG) was created
Government Printing Office (GPO) has been                by the GPO Inspector General Act of 1988—title
to fulfill the needs of the Federal Government           II of Public Law 100-504 (October 18, 1988). The
for information products and to distribute               mission of the OIG at GPO is to provide leadership
those products to the public. GPO is the Federal         and coordination as well as evaluate GPO’s internal
Government’s primary centralized resource for            control structure, and recommend policies, processes,
gathering, cataloging, producing, providing,             and procedures that will help prevent and detect
authenticating, and preserving published                 fraud, waste, abuse, and mismanagement. The
U.S. Government information in all its forms. GPO        OIG also recommends policies that will promote
also produces and distributes information products       economy, efficiency, and effectiveness in GPO
and services for each of the three branches of the       programs and operations. The OIG is dedicated to
Federal Government.                                      acting as an agent of positive change to help the
                                                         GPO improve its efficiency and effectiveness as it
Under the Federal Depository Library Program,            undertakes its era of unprecedented transformation.
GPO distributes a broad spectrum of Government           It offers an independent and objective way of keeping
publications both in print and online formats            the Public Printer and Congress fully informed about
to more than 1,250 public, academic, law, and            problems and deficiencies along with any positive
other libraries across the country. In addition to       developments relating to the GPO’s administration
distributing publications, GPO provides access to        and operations. To meet those responsibilities, the
official Federal Government information through          OIG conducts audits, assessments, investigations,
public sales and other programs, and—most                inspections, and other reviews.
prominently—by posting more than a quarter of a
million titles online through GPO Access
(www.gpoaccess.gov).

Today about half of all Federal Government               The OIG is dedicated to acting
documents are born digital products and will be
published directly to the Internet. GPO will never
                                                         as an agent of positive change
actually print those products. Such an evolution of
creating and disseminating challenges GPO. But
                                                         to help the GPO improve its
GPO is meeting those challenges by transforming          efficiency and effectiveness
from primarily a print format to an entity capable
of delivering information products and services          as it undertakes its era of
from a flexible digital platform. While introduction
of digital technology may change the way GPO             unprecedented transformation.
products and services are created and how they look
or function, GPO will continue to satisfy the changing
information requirements of Government and
accomplish its mission of Keeping America Informed.
Contents
Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2
Highlights of this Semiannual Report  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4
OIG Management Initiatives  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4
Review of Legislation and Regulations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  5
GPO Management Challenges  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  7
Office of Audits and Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
       A.	 Summary of Audit and Inspection Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
       B.	 Audit Accomplishments – Audit and Inspection Reports  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
       C.	 Financial Statement Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       D.	 Secure Production Facility . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
       E.	 TeamMate Audit Software Implementation  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
       F.	    Future Digital System (FDSys)-Independent Verification and Validation  . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
       G. 	 Status of Open Recommendations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
       A.	 Summary of Investigative Activity  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    21
       B.	 Types of Cases  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   21
       C.	 Status of Action on Referrals  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              21
       D.	 Investigative Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
       E.	 Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

Appendices
       A.	 Glossary and Acronyms  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
       B.	 Inspector General Act Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
       C.	 Statistical Tables
       	Table C-1: Audit Reports with Questioned and
         Unsupported Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           27
       	Table C-2: Audit Reports with Recommendations
         for Funds That Can Be Put to Better Use  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          28
       	Table C-3: List of Audit and Inspection Reports Issued During
         Reporting Period  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       29
       	      Table C-4: Investigations Case Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        30
       	      Table C-5: Investigations Productivity Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              32	
     Message from the Inspector General

     This semiannual report of the U.S. Government Printing Office (GPO)
     Office of Inspector General (OIG) summarizes our work from April 1,
     2007, through September 30, 2007. The audits, inspections, investigations,
     and other activities highlighted in this report demonstrate the OIG’s
     ongoing commitment to promote integrity, accountability, efficiency, and
     effectiveness in GPO programs and operations.

     During this reporting period, the OIG continued to review and assess its
     role within the Agency as it relates to the GPO Strategic Vision for the 21st
     Century. As a result of that review, the OIG updated its Strategic Plan and
     refocused OIG efforts on those areas of GPO operations that are most
     critical to the Agency’s future success, while at the same time ensuring that
     the OIG maintains its independence and continues to carry out its legal
     duties and responsibilities.

     The Office of Audits and Inspections (OAI) continued its focus on several
     technology-laden initiatives critical to the ongoing operations of GPO. After
     the Joint Committee on Printing (JCP) approved the project, the OIG began
     Independent Verification and Validation of GPO’s Future Digital System
     (FDsys) – a program that this office will continue to monitor diligently
     to help ensure its success. The OIG also conducted the first assessment of
     GPO’s compliance with the Federal Information Security Management Act
     (FISMA),1 which resulted in several recommendations to help the Agency
     enhance its information security posture. The OAI also completed a contract
     claim review that questioned a contractor’s claim of $587,934, including
     $347,247 in unallowed costs and $240,687 in unsupported costs.

     In our efforts to review passport production programs and operations
     for the Department of State, the OAI is assessing the Agency’s Secure
     Production Facility. An initial report is expected in the next reporting period.
     Additionally, the Office of Investigations (OI) completed two investigations
     concerning passport security. These investigations resulted in several
     management recommendations that will help improve passport
     production security.




     1  As a Legislative branch agency, GPO is not required to comply with FISMA.
     However, the Agency voluntarily chose to comply because FISMA is considered
     a Federal Government best practice for information security management.




2	                      Office of Inspector General Semiannual Report to Congress
   The OI also continued its efforts to expose workers’ compensation fraud.
   An investigation that the Department of Justice previously accepted for
   prosecution resulted in a conviction, a 12-month jail sentence, and an order
   of restitution in excess of $120,000.

   The OIG will continue to work with GPO staff and management in iden-
   tifying and resolving issues that promote efficiency and combat waste and
   fraud. With the appointment of a new Public Printer, the OIG looks forward
   to working with GPO management under a new administration.




   J. Anthony Ogden
   INSPECTOR GENERAL
   U.S. Government Printing Office




Office of Inspector General Semiannual Report to Congress 	                       3
Highlights of this Semiannual Report                          participated actively in the Council of Counsels to the
                                                              Inspector General (CCIG) and, along with the GPO
                                                              Web Development and Creative Services Division, is
During this reporting period, the OIG continued to
                                                              working on a project to develop an informational CCIG
direct its resources toward those areas of greatest risk
                                                              website for the benefit of the entire IG community.
within GPO. We provided a variety of services, includ-
ing program and financial audits, inspections and
assessments of key operations, and investigative activ-       OIG Management Initiatives
ity that resulted in criminal and administrative actions.
We also continued to serve as consultants on a variety        Personnel Update
of Agency issues, and provided comments on proposed           Alberto Rivera-Fournier joined the OIG as the Assistant
legislation and regulations. The work of each of the          Inspector General for Administration and Counsel to
OIG components is summarized below.                           the Inspector General. Alberto comes to the OIG from
                                                              the Federal Trade Commission where he worked as an
The Office of Audits and Inspections (OAI) issued 5 reports   attorney in the Bureau of Consumer Protection han-
with a total of 23 recommendations for improving GPO          dling rulemakings and litigation. Before working at the
operations, including strengthening internal controls         FTC, Alberto was a Senior Attorney in the U.S. Office of
throughout the Agency. Those reports had an associated        Special Counsel, and also worked as Deputy General
dollar impact of $587,934. OAI also continued to work         Counsel at the Puerto Rico Federal Affairs Administra-
jointly with GPO management to close 14 open recom-           tion. Alberto is a graduate of The George Washington
mendations from previous reporting periods.                   University Law School and Wesleyan University.

The Office of Investigations (OI) opened 15 new inves-        Vera Garrant and Karl Allen joined the OAI as Supervi-
tigative cases in response to 394 new complaints or           sory Auditors. Both individuals bring a combination of
allegations and closed 18 matters. Through its investi-       over 45 years of audit experience to the GPO OIG from
gative efforts during this period, OI recovered $1,625        various Federal audit organizations.
and helped GPO realize cost savings of approximately
$390,000 through the successful investigation of work-        Vera comes to the OIG from the Department of Health
ers’ compensation fraud. Finally, as a result of an OI        and Human Services OIG where she was the Director
workers’ compensation fraud investigation, the sub-           of the Planning, Reporting and Analysis Division in the
ject was convicted and sentenced to 12 months in jail,        Office of Management and Policy. Vera has over 21
placed on 24 months probation, and ordered to make            years of Federal audit experience with several agencies
restitution of $123,289 to the GPO.                           including the Internal Revenue Service, the Defense Con-
                                                              tract Audit Agency, the Department of Defense OIG,
The Office of Administration/Legal Counsel (OALC) pro-        and the National Aeronautics and Space Administra-
vides legal advice and counsel on issues arising during       tion (NASA) OIG. She is a graduate of New Hampshire
audits, inspections, and investigations, including opin-      College in Manchester, New Hampshire, and a Certified
ions regarding legal accuracy and sufficiency of OIG          Public Accountant.
reports. OALC also manages the budget and the admin-
istrative, human resources, and technology needs of the       Karl joined us from the NASA OIG where he served as
OIG. During the reporting period, OALC reviewed two           a Project Manager in the Financial and Institutional
search warrants, two administrative subpoenas, and            Audits Directorate. He served in a variety of positions at
assisted OI with several matters that the Department          the NASA OIG for more than 16 years. Karl has 24 years
of Justice accepted for civil and criminal prosecution.       of Federal audit experience with several agencies includ-
In addition to its other duties throughout the report-        ing the Department of Agriculture and was formerly
ing period, OALC also acted on a variety of matters as        with the GPO OIG from 1988 to 1990. He is a graduate
the OIG liaison to the GPO General Counsel and to             of Rowan University in Glassboro, New Jersey, and is a
the GPO Office of the Chief of Staff. Finally, the OALC       Certified Public Accountant.



4	                                                            Office of Inspector General Semiannual Report to Congress
Kia Walters-Williams joined the OIG as Administrative         In response, legislative branch IGs now meet on a
Assistant. Kia comes to the OIG from the private sector,      quarterly basis. During this reporting period, the GPO
where she worked as a Route Coordinator at Lasership,         OIG hosted the meeting. The meetings have enabled
a delivery company, for five years. Kia is a graduate of      improved communications and contact between the
Meade Senior High School, at Fort Meade, Maryland.            legislative branch IGs. In addition, the meetings have
                                                              facilitated the development of a skills inventory to pro-
Strategic Plan and Staff Training                             vide a resource for identifying available personnel to
During this reporting period, senior OIG staff updated        share resources, help identify cross-training needs, and
the OIG Strategic Plan for 2007 through 2009. The plan        perhaps facilitate coordination on future audits applica-
discusses the vision, mission, goals, objectives, and         ble throughout the legislative branch. Quarterly
strategies that will guide the OIG during the next three      meetings will continue to rotate among the IG offices
years and refocuses the OIG’s efforts on those areas          of the legislative branch. Updates and the progress of
most critical to the Agency’s future success. The updated     those meetings will be provided to Congress in our
strategic plan is on the OIG’s website (www.gpo.gov/          respective semiannual reports.
oig/strategic_plan.htm).
                                                              Review of Legislation and Regulations
The OIG also had its first-ever training retreat for all
OIG staff. The training focused on building effective
                                                              The OIG, in fulfilling its obligations under the Inspec-
team communication and working on understand-
                                                              tor General Act of 1978, as amended (IG Act), reviews
ing and accomplishing the OIG’s Strategic Plan for
                                                              existing and proposed legislation and regulations relat-
2007-2009.
                                                              ing to programs and operations of GPO. It then makes
                                                              recommendations in each semiannual report on the
Executive Council on Integrity and Efficiency
                                                              impact of such legislation or regulations on the econ-
The President’s Council on Integrity and Efficiency           omy and efficiency of programs and operations admin-
(PCIE) and the Executive Council on Integrity and Effi-       istered or financed by GPO. In an effort to assist the
ciency (ECIE) were established by Executive Order to          Agency in achieving its goals, we will continue to play
coordinate and enhance governmental efforts, to pro-          an active role in that area.
mote integrity and efficiency, and to detect and pre-
vent fraud, waste, and abuse in Federal programs. The         During this reporting period, the OIG continued dis-
PCIE comprises 29 Inspectors General (IGs) that the           cussions with GPO management regarding the process
President appoints, and the ECIE comprises 33 IGs that        for establishing, updating, and communicating GPO
agency directors appoint. The OIG at GPO is a member          directives to Agency employees. The OIG has urged
of the ECIE and participates regularly in its activities.     management to maintain the legal integrity of the
During this reporting period, the co-Chair of the ECIE        directives to ensure their effectiveness. GPO manage-
appointed the GPO IG to serve on the Legislative Com-         ment has taken steps to address this concern. The OIG
mittee of the PCIE/ECIE.                                      again urged GPO management to update several direc-
                                                              tives, including the directive regarding the GPO work-
The Senate Appropriations Committee has previously            ers’ compensation program.
acknowledged that a majority of legislative branch
agencies have either a statutory or administrative IG to      While there were no legislative proposals relating to
conduct and supervise audits and investigations relat-        GPO programs and operations, at the request of the
ing to the programs and operations of their entity. The       ECIE, the OALC provided additional comments to the
Committee recognized the benefits of coordination             ECIE legislative committee on two bills that would
and formal communication between and among IGs                amend the IG Act. Those bills were House of Represen-
through the PCIE and ECIE and urged that the legisla-         tatives Bill 928 and Senate Bill 1723 (“Improving Gov-
tive branch IGs communicate, cooperate, and coordi-           ernment Accountability Act”).
nate with each other on an informal basis.



Office of Inspector General Semiannual Report to Congress 	                                                            5
GPO Management Challenges                                      relocation of GPO’s operations. While Members of Con-
                                                               gress have expressed interest in this issue and urged the
                                                               Agency to continue its efforts toward approval, there
GPO is well into its transformation efforts, having estab-
                                                               have been limited efforts in this regard. The OIG has not
lished several key initiatives that will help the Agency
                                                               performed a review of the proposed move, but the infor-
meet its mission in the ever-changing digital environ-
                                                               mation reviewed thus far supports significant cost sav-
ment. Substantial and challenging risks that could affect
                                                               ings. Accordingly, the OIG encourages management to
successful implementation of these programs and initia-
                                                               continue making this matter a significant priority.
tives will continue. In our first semiannual report this
fiscal year, the OIG provided management a list of issues
                                                               Our update of management challenges follows:
we identified as most likely to hamper the Agency’s
efforts if not addressed with elevated levels of attention
and resources. We update the management challenges
                                                               1. Strategic Planning. As previously noted, to realize
                                                               and sustain the GPO Vision, each individual business
in this semiannual report and will continue to provide
                                                               unit within the Agency must develop and implement
updates in future reports.
                                                               its own clear and succinct strategic plan that aligns with
With the appointment of a new Public Printer, we               GPO’s Strategic Vision for the 21st Century. We have
remind management of the former Public Printer’s com-          urged business units to develop plans that cascade goals
ments that the challenges were “vital to GPO’s continu-        and objectives from the Agency’s plan to help achieve
ous transformation” and that “it is critical that the next     employee buy-in and ensure that transformation efforts
Public Printer incorporates all of these challenges and        stay on track. In the absence of clearly articulated plans,
that the current progress being made on each of them           senior management will have a difficult time deter-
continues. GPO cannot afford to reverse its course if it       mining whether the various business units are working
expects to be at the cutting edge of new technology and        together toward a common strategic goal.
an industry leader in the digital age.” We trust that the
                                                               During this reporting period, GPO Organizational
new Public Printer will continue the Agency’s efforts in
                                                               Architects continued their efforts in implementing the
this regard.
                                                               provisions of the Government Performance Results Act
While we have noted previously our concern about the           (GPRA). Although not required to follow all of the man-
Agency’s acquisitions process, we acknowledge that the         dates of GPRA, Congress has urged GPO to embrace
addition of a new Chief Acquisition Officer has brought        its tenets. Indeed, the Organizational Architects have
about significant improvements. Assembling a highly            helped the Agency identify specific goals, objectives for
professional and trained contracting workforce skilled at      each goal, and ways of measuring success. Although not
carrying out nontraditional acquisitions will continue to      necessarily constituting development of individual busi-
be key to the success of GPO.                                  ness unit plans (a strategy we continue to urge), iden-
                                                               tifying specific goals and objectives does help address
We continue to note the issue of a new facility for GPO.       the underlying issue—ensuring that business units work
As previously reported, management has maintained for          toward common goals and advance the GPO’s Strategic
years that the current GPO facility is too large and anti-     Vision. We are encouraged that GPO management has
quated and requires an extraordinary amount of finan-          made the effort a priority. Continued progress will help
cial resources for operation and maintenance. The esti-        ensure that transformation efforts stay on track during
mates for building upkeep for Fiscal Year 2008 exceed          this critical transition time.
$35 million. The Agency proposed to Congress a plan
for relocating to new facilities specifically sized and        2. Management of Human Capital. We previously
equipped for future requirements and to more effec-            highlighted challenges GPO faces in “rightsizing” the
tively meet the needs of its customers. Although the           Agency workforce while at the same time attracting
challenges associated with such a move will be signifi-        employees with the right skill sets for the new GPO.
cant for the Agency, Congress must still approve any           The Chief Human Capital Officer will continue to




 Office of Inspector General Semiannual Report to Congress 	                                                             7
confront significant issues related to the transforma-      support business growth and customer technology
tion of the GPO workforce and must advance creative         requirements for products and services. To oversee and
solutions for ensuring that the Agency meets its ongo-      support such a complex effort, the GPO Oracle Pro-
ing workforce needs, in part by building a diverse, qual-   gram was created. While investment in the integrated
ified applicant pool.                                       system presents opportunities for enhanced efficiency
                                                            and cost savings, it also presents significant risk in the
The OIG previously highlighted the need for a com-          event the system does not meet user requirements. GPO
prehensive telework program. Since that time, GPO           must ensure implementation happens on time, within
established an Agency policy successfully implement-        budget, and with a satisfactory result.
ing a telework program. The telework program will also
help address certain critical continuity of operations      The OIG contracted Independent Verification and Vali-
(COOP) issues.                                              dation (IV&V) activities for two early implementation
                                                            projects related to GPO implementation of the Oracle
With an increased demand for passport production,           E-Business suite. The objective of IV&V is to provide
Human Capital must also address current and ongo-           GPO with an independent assessment of project status,
ing needs of plant operations to ensure that a reliable     satisfaction of user needs, and project cost effectiveness.
workforce is in place that can meet security require-       To that end, the IV&V identified several vulnerabilities
ments and understand the need for strict quality assur-     with the two projects and the OIG recommended that
ance and compliance in the passport production facil-       GPO management strengthen controls to mitigate the
ity. Workforce issues affecting plant operations will       risks associated with those vulnerabilities. Management
be particularly important in the next six months with       concurred with each of the recommendations and pro-
respect to the plan to have a Secure Production Facil-      posed responsive corrective actions. We are also con-
ity (SPF) fully operational by April 1, 2008. Accom-        tinuing IV&V efforts for the second release of Oracle,
plishing that milestone will require the execution of a     which will include implementations related to inven-
plan designed to hire, train, and place on-site, approxi-   tory and procurement.
mately 50 personnel to staff the SPF by March 1, 2008.
We have initiated an audit to review the various issues     Finally, the OIG continues to provide oversight of the
related to the planning for the SPF.                        activities of KPMG LLP (KPMG), the Independent Pub-
                                                            lic Accountant (IPA) conducting the GPO’s annual
The results from the GPO Employee Survey released           financial statement audit. KPMG is currently in the pro-
in 2006 showed that while job satisfaction is rela-         cess of auditing the FY 2007 financial statement.
tively high, “communications at GPO” stands out as
not having improved since 2004. When compared to            4. Continuity of Operations. A previous OIG review
results from the 2004 Federal Human Capital Survey,         of the GPO COOP planning revealed that the Agency
GPO actually rated lower in almost all identical items.     may not be adequately prepared to deal with a sig-
Human Capital has, however, developed a plan that           nificant event such as a natural or man-made disaster.
addresses these and other challenges as well as provides    Our report included several recommendations includ-
opportunities for improving communications at GPO.          ing, most fundamentally, that GPO adopt the plan-
Improving communications at GPO will require ongo-          ning requirements and critical elements identified in
ing support from management.                                Federal Preparedness Circular 65. Management must
                                                            address the problem to be able to continue its essential
3. Improved Financial Management. GPO has been              functions and resume normal operations within a time
migrating current business, operational, and finan-         frame acceptable to its customers and business partners.
cial systems, including associated work processes, to
an integrated system of Oracle enterprise software and      In response to our recommendations, GPO developed
applications. The new system will provide GPO with          a comprehensive draft COOP plan based on the Federal
integrated and flexible tools that will help successfully   Emergency Management Agency template of key COOP




8	                                                          Office of Inspector General Semiannual Report to Congress
components. The draft plan addresses issues such as           6. Security and Intelligent Documents. Management
essential functions, interoperable communications,            considers Security and Intelligent Documents (SID) the
delegations of authority and testing, training, and exer-     most important business unit for the future of GPO.
cises. The Agency also developed an Occupant Emer-            Since our last report, SID continued its business devel-
gency Plan (OEP) as a companion to its COOP. The              opment addressing Government credentials and re-
OEP establishes the appropriate response in the event         examined its request for proposal for production capa-
of an emergency and addresses all known or antici-            bility of smart cards.
pated categories of emergencies.
                                                              Although showing progress in meeting unprecedented
Further steps to enhance the Agency’s COOP posture            demand from the Department of State (DOS), the pro-
were taken during this reporting period, including iden-      duction of blank passports remains a significant con-
tifying the location of the SPF and obtaining congres-        cern from a security and quality assurance standpoint.
sional approval to equip, staff, and activate the facility    The OIG will remain diligent in reviewing passport
by April 1, 2008. In addition, the Agency conducted           related matters and has dedicated a Supervisory Audi-
several, real-time COOP exercises which successfully          tor to review issues in upcoming reporting periods.
tested alternate production facilities and notification       The passport production facility underwent an exter-
procedures for essential GPO personnel.

5. Internal Controls. GPO management establishes and
maintains a system of internal controls to achieve the           GPO’s Top 10
objectives of effective and efficient operations, reliable       Management Challenges
financial reporting, and compliance with applicable
laws and regulations. In addition, practically every OIG         	 1.	 Strategic Planning.
audit includes an assessment of a program, activity, or          	2.	 Management of Human Capital.
function’s applicable control structure. Several ongoing         	 3.	 Improved Financial Management.
audits of GPO activities are assessing internal controls.
                                                                 	 4.	 Continuity of Operations.
In addition, the annual financial statement audit by             	 5.	 Internal Controls.
KPMG addresses internal control issues and provides              	 6.	 Security and Intelligent Documents.
management with recommended corrective actions.
                                                                 	 7.	 Supporting Congressional Printing.
While management recognizes the need for improving
the current internal control environment to successfully         	 8.	Information Technology and Systems
implement its strategic vision, and has planned future                 (IT&S) Management.
initiatives in this area, Agency action is even more             	 9.	 Customer Service.
important because of upcoming changes that elevate
even further the importance of a sound internal
                                                                 	10.	 Acquisitions.
control program.

Of particular importance is the implementation of State-      nal physical security review and we report the results
ment on Auditing Standards (SAS) No. 112, “Communi-           herein. Redesign of the production area to enhance
cating Internal Control Related Matters Identified in an      security, while reported as underway in our last report,
Audit.” SAS 112 establishes standards and provides guid-      still requires significant attention.
ance on communicating matters related to an entity’s
internal control over financial reporting identified in a     GPO has launched its e-Credentials program to serve
financial statement audit. The standard requires that the     customers in the DOS, Department of Defense, Coast
auditor communicate control deficiencies that are “sig-       Guard, and others. The Department of Homeland Secu-
nificant deficiencies” and “material weaknesses.”             rity (DHS) Customs and Border Patrol (CBP) recently
                                                              selected GPO to design, produce, and issue hundreds of



Office of Inspector General Semiannual Report to Congress 	                                                              9
thousands of secure Trusted Traveler cards. DHS/CBP             the registration and credential issuance processes; use
has challenged GPO to create one of the most secure             of original identity source documents; use of appropri-
identity cards issued by the Federal Government. The            ate background investigations; and, use of smart cards
Trusted Traveler security goals, shared among the gov-          as person-identity-verification credentials. The OIG will
ernments of the U.S., Canada, and Mexico, are to pro-           monitor Agency efforts regarding internal deployment
tect North America from external threats, and to pre-           of HSPD-12 and conduct audits as necessary to ensure
vent and respond to internal threats.                           compliance with FIPS-201.

Additionally, GPO and the Social Security Administra-           7. Supporting Congressional Printing. In our last
tion (SSA) will launch a pilot project using GPO equip-         reporting period, we noted that the JCP had expressed
ment and processes to deliver 1000 Federal Information          concerns to GPO management that apparently stem
Processing Standards-2012 cards. Evaluation results will        from late deliveries of printed versions of legislative
determine if SSA proceeds with a follow-on project to           documents the House of Representatives and Sen-
personalize the FIPS-201 cards at quantities and time-          ate require. Reported reasons for the late deliveries
frames to be determined. To realize the benefits from           included changes in staffing, reorganization of the
such opportunities, management must continue to                 workforce, use of “use-it-or-lose-it” leave during critical
ensure the necessary procurement and related support            times, and various IT matters.
to SID. The OIG will work with SID to develop ade-
quate oversight of these projects.                              During this reporting period, GPO management took
                                                                primary steps to address these problems, including
Although other concerns received significant attention,         establishing a Data Operations Center to provide IT
several matters must remain a priority for management.          support for Plant Operations and increased personnel
Among those concerns are finalizing a Memorandum                to meet Congressional printing demand. The OIG will
of Understanding with the DOS, addressing technol-              continue to monitor the situation to make sure long-
ogy as well as data security related to the electronic          term solutions and strategies are implemented to meet
passport, inventory volume and storage of blank pass-           timely Congressional printing demands.
port books, and understaffing in the SID business unit.
Although we note progress regarding certain COOP vul-           8. Information Technology and Systems (IT&S) Man-
nerabilities, critical issues must still be addressed and       agement. As GPO transforms from an ink-on-paper
the OIG will continue to focus on these issues during           operation to a highly secure multimedia digital dissem-
upcoming reporting periods.                                     ination environment, management of the Agency’s IT
                                                                resources is critical to the success of the GPO vision and
As GPO considers deploying its own Homeland Secu-
                                                                mission. Acquisition, implementation, and sustaining
rity Presidential Directive 12 (HSPD-12) infrastructure
                                                                engineering issues associated with IT&S, including secu-
and issuance of identity credentials to GPO employees
                                                                rity issues, provide GPO with new and emerging man-
and contractors, it must consider several control objec-
                                                                agement challenges.
tives critical to meeting the security, efficiency, fraud
prevention, and privacy protection goals of HSPD-12.            Noteworthy challenges for IT&S include establishing
Those control objectives include separation of duties in        a top level Enterprise Architecture and support for a
                                                                number of significant initiatives, including the Future
2  Federal Information Processing Standards Publication 201     Digital System (FDsys), e-passport systems, rollout of
(FIPS-201) is a United States Government standard that spec-    GPO’s Public Key Infrastructure (PKI), network man-
ifies Personal Identity Verification requirements for Federal   agement, and the continued implementation of the
employee and contractor access to Federal facilities and in-    Oracle financial management system. To create a plan
formation systems. FIPS–201 was developed to satisfy the        for mitigating risks to GPO from aging legacy systems,
technical requirements of Homeland Security Presidential
                                                                IT&S initiated a legacy application and business
Directive (HSPD) 12 – Policy for a Common Identification
Standard for Federal Employees and Contractors.




10	                                                             Office of Inspector General Semiannual Report to Congress
impact analysis. Legacy systems increasingly inhibit            9. Customer Service. As GPO moves closer to its goal
GPO’s ability to respond to customer needs and must             of transforming to a 21st Century information process-
be replaced or worked around.                                   ing and dissemination operation, its customer services
                                                                must reflect and advance that transformation. To ensure
In addition, because GPO is a provider of services to           success in the future, GPO management must main-
agencies of the executive branch who must comply with           tain the appropriate focus, staffing, and alignment with
FISMA, GPO has chosen to substantially comply with              its Strategic Vision. The culture and focus of customer
the principles of the Act. Complying with FISMA pres-           service efforts must reflect a new way of thinking, and
ents additional challenges to IT&S, including protec-           customers should come to GPO because they want to—
tion of sensitive Agency information as well as personal        not because they have to. Transformation of the tradi-
information. During FY 2007, the OIG conducted an               tional GPO customer relationship requires a continu-
assessment of GPO compliance with FISMA to identify             ing evolution toward state-of-the-art customer relations
gaps and deficiencies in the Agency’s overall informa-          management.
tion security program as well as specific critical Agency
systems. We will conduct a follow-on FISMA assess-              10. Acquisitions. GPO is implementing a phase of its
ment in FY 2008. We also conducted an annual assess-            new FDsys, which is envisioned to be a world-class sys-
ment of the GPO enterprise network infrastructure to            tem that will preserve and provide permanent public
evaluate the level of security controls in place that help      access to information published by all branches of the
protect GPO’s IT resources from unauthorized access             Federal Government. Successful acquisition and imple-
and compromise.                                                 mentation of the approximate $29 million system is
                                                                critical to the Agency’s future as a 21st Century informa-
As the Agency fulfills its mission in the vital arena of        tion processing and dissemination operation. The OIG
electronic information dissemination and e-Govern-              is conducting FDsys IV&V activities. IV&V activities will
ment, GPO established a PKI that will serve the needs           determine whether the system implementation is con-
of the Agency, its legislative branch partners, and other       sistent with the FDsys project plan and cost plan, and
Federal partners. 3 The GPO PKI is cross-certified with the     whether the delivered system meets GPO requirements.
Federal Bridge Certification Authority—a substantial and
necessary step toward using PKI for the benefit of a vari-      The OIG remains concerned with the Agency’s abil-
ety of customers. PKI will serve as an important contribu-      ity to efficiently and effectively acquire the high-tech-
tor for future GPO revenue-generating activities.               nology goods and services necessary to transform the
                                                                Agency. Acquisitions such as the FDsys require a pro-
To partially meet PKI certification provisions, the OIG         fessionally-trained contracting workforce skilled at car-
conducts periodic compliance reviews that determine             rying out nontraditional acquisitions. As such, orga-
whether GPO’s assertions related to the adequacy and            nizational and staffing issues confronting the Agency
effectiveness of the controls over its PKI Certificate          remain a significant challenge. With respect to the
Authority operations are fairly stated based on underly-        Agency’s contracting workforce, management has taken
ing principles and evaluation criteria. Finally, as iden-       steps such as separating Acquisition Services from Cus-
tified in Management Challenge 3 and Management                 tomer Services and hiring a Chief Acquisition Officer.
Challenge 10, the OIG will also lead IV&V activities            Further emphasis should be focused on ensuring that
associated with the ongoing implementation of the               GPO contracting staff obtains the appropriate training
Oracle financial management system and implementa-              and qualifications necessary for conducting the types
tion of FDsys.                                                  of complex acquisitions that the Agency will require
                                                                during its transformation.


3  PKI ensures the highest level of protection for electronic
information that travels over ordinary, non-secure networks
by encrypting information.




Office of Inspector General Semiannual Report to Congress 	                                                             11
Office of Audits and Inspections (OAI)                        B. Audit Accomplishments – Audit and
                                                              Inspection Reports
OAI, as required by the IG Act, conducts independent
and objective performance and financial audits relat-         1. Assessment Report 07-06 (Issued May 9, 2007)
ing to GPO operations and programs, and oversees              Report on GPO Oracle Release 2 Project – Review of State-
the annual financial statement audit performed by an          ment of Work
IPA firm under contract. OAI also conducts short-term
                                                              The OIG continues to conduct IV&V activities associ-
inspections and assessments of GPO activities that gen-
                                                              ated with GPO implementation of the Oracle E-Busi-
erally focus on issues limited in scope and time. All
                                                              ness suite. GPO is implementing certain licensed
OIG audits are performed in accordance with generally
                                                              modules of the Oracle E-Business suite in a series of
accepted government auditing standards (GAGAS) pro-
                                                              Incremental Operating Capabilities (IOC). The objec-
mulgated by the Comptroller General of the
                                                              tive of IV&V is to provide GPO with an independent
United States.
                                                              assessment of project status, satisfaction of user needs,
                                                              and project cost effectiveness.
When requested, OAI provides accounting and audit-
ing assistance to the OIG OI for both civil and criminal
                                                              To conduct IV&V activities, the OIG contracted with a
investigations. Furthermore, OAI refers any irregularities
                                                              nonprofit, scientific research and engineering corpo-
and other suspicious conduct detected during audits,
                                                              ration that operates in the public interest. To date, the
inspections, or assessments to OI for investigative con-
                                                              OIG has conducted IV&V activities on several early
sideration.
                                                              implementation Oracle start-up projects. As part of this
                                                              review, the OIG tasked the contractor to evaluate the
A. Summary of Audit and Inspection Activity
                                                              Agency’s draft Statement of Work (SOW) to obtain the
During this reporting period, OAI issued five new audit       services of a project integrator for the Oracle Release 2
and assessment reports. These 5 reports made 23 rec-          project. Specifically, the contractor was tasked to evalu-
ommendations for improving GPO operations, includ-            ate the SOW to determine whether (1) the relevant sec-
ing strengthening of internal controls throughout             tions necessary for a SOW of the size and scope of the
the Agency. The reports also had an associated dollar         Oracle Release 2 project were present; and (2) exist-
impact of $587,934.                                           ing sections were fully articulated with the information
                                                              required to enable full offeror scoping and Government
OAI continued to work with GPO management to                  bid evaluation.
close open recommendations carried over from pre-
vious reporting periods. As of September 30, 2007, a          The OIG issued a sensitive report which concluded
total of 33 recommendations remain open. The num-             that the draft SOW needed additional detail to ensure
ber of open recommendations decreased significantly           successful performance by an integrator, including
from the 47 open as of the completion of the last semi-       additional detail to adequately scope the work to be
annual reporting period. Based on our assessment of           performed. Although formal recommendations were
management’s ongoing actions, including those specifi-        not made to GPO, comments and recommendations
cally related to Oracle implementation, we believe that       intended to strengthen the SOW were provided to man-
a significant number of remaining open recommenda-            agement and the GPO Oracle Project team.
tions from previous periods will be closed during the
next reporting period.




Office of Inspector General Semiannual Report to Congress 	                                                           13
2. Assessment Report 07-07 (Issued September 17,             To satisfy this compliance requirement, the OIG tasked
2007)                                                        an IPA firm to conduct a WebTrust assessment of the
Report on WebTrust Assessment of GPO’s Certification         GPO PKI Certification Authority (CA) for the period of
Authority – Attestation Report                               August 1, 2006 through June 30, 2007. The IPA assessed
                                                             the CA in accordance with the American Institute of
GPO implemented its PKI to support its “born digi-           Certified Public Accountants (AICPA) “WebTrust Princi-
tal and published to the Web” methodology and meet           ples and Criteria for Certificate Authorities.” The assess-
GPO customer expectations that documents are offi-           ment represents an evaluation of whether GPO man-
cial and authentic. The GPO PKI also directly supports       agement assertions related to the adequacy and
the GPO mission related to electronic information dis-       effectiveness of controls over its CA operations are in
semination and e-Government. The GPO PKI is cross-           all material respects fairly stated. The IPA firm issued an
certified with the Federal Bridge Certification Authority,   attestation report that expresses their opinion that the
whose certification provisions require that the GPO PKI      assertions of GPO management regarding its CA opera-
undergo an annual compliance review.                         tions are fairly stated. This opinion is contained in the
                                                             final report, which is considered sensitive.

                                                             3. Audit Report 07-08 (Issued September 19, 2007)
                                                             Report on Audit of Revised Settlement Proposal by [GPO
                                                             Contractor]
                                                             In accordance with Section 49.107 of the Materials
                                                             Management Acquisition Regulation (MMAR), the OIG
                                                             performed an audit of the revised settlement proposal
                                                             a GPO contractor submitted. The settlement proposal
                                                             was for a requirements contract awarded to provide the
                                                             production of various laser Government forms, letters,
                                                             notices, court documents, requests for information, and
                                                             newsletters, requiring such operations as outputting
                                                             of static and variable data from furnished electronic
                                                             media, other printing of static information, binding,
                                                             packing, mailing, and distribution. GPO terminated the
                                                             contract for convenience in May 2006. In July 2006, the
                                                             contractor submitted a settlement proposal to GPO for
                                                             $1,312,747. Subsequent to GPO’s counterproposal, the
                                                             contractor submitted a revised proposal for $587,934.

                                                             The OIG audit of the revised settlement proposal ques-
                                                             tioned the contractor’s entire claim of $587,934, includ-
                                                             ing $347,247 in unallowed costs and $240,687 in
                                                             unsupported costs. The report, which was advisory in
                                                             nature, was submitted to the GPO Contracting Officer
                                                             for use in negotiating a settlement or issuing a unilateral
                                                             determination regarding the contractor’s proposal. A
                                                             decision by the GPO Contracting Officer was pending at
                                                             the completion of this reporting period.




14	                                                          Office of Inspector General Semiannual Report to Congress
4. Assessment Report 07-09 (Issued September 27,              leased facilities. Although GPO is a legislative branch
2007)                                                         agency and not subject to FPS recommendations, the
Report on GPO’s Compliance with the Federal Information       OIG considers FPS recommendations related to build-
Security Management Act (FISMA)                               ing security to be best practices for the protection of
                                                              Federal facilities and GPO should follow them when-
FISMA requires that each executive branch agency              ever possible and practical.
develop, document, and implement an agency-wide
program for providing information security for the            At the OIG’s request, the FPS conducted a physical secu-
information and information systems that support the          rity assessment of a GPO Building. The assessment was
operations and assets of the agency, including those          conducted in accordance with the standards detailed
provided or managed by another agency, contractor,            in the “Department of Justice Vulnerability Assessment
or other source.2 Although a legislative branch agency,       of Federal Facilities,” dated June 28, 1995. The stan-
GPO has recognized the need to be FISMA compliant             dards in the report establish facility security levels and
due to the services the Agency provides, including ser-       minimum physical security safeguards required for all
vices to executive branch agencies.                           Federal facilities to protect against acts of terrorism and
                                                              other forms of violence. The FPS evaluated the perime-
The OIG contracted with a consulting firm to perform          ter security of a GPO Building against Interagency Secu-
a baseline assessment of GPO’s FISMA compliance and           rity Committee (ISC), Security Design Criteria. The ISC
to evaluate the design and effectiveness of the controls      Security Design Criteria was developed to ensure that
over GPO’s information security program, policies,            security becomes an integral part of the planning,
and practices. The assessment was performed using the         design, and construction of new Federal office build-
most recent applicable FISMA requirements and guide-          ings and major modernization projects.
lines published by the Office of Management and
Budget and the National Institute of Standards and            The FPS methodology for assessing security in this GPO
Technology. Significant emphasis was placed on evalu-         Building included (1) identifying existing countermea-
ating the GPO systems used for providing services to          sures at the facility, (2) identifying credible threats to
client agencies.                                              the facility, and (3) rating each threat as to potential
                                                              impact of loss and vulnerability. The sensitive report
The OIG issued a sensitive report concluding that             contains 12 recommendations intended to enhance
although the Agency has taken steps to comply with            security of this GPO Building.
FISMA, additional progress is needed to fully com-
ply. The report contains 11 recommendations which, if         C. Financial Statement Audit Activity
implemented, will help move GPO toward FISMA
                                                              Federal law requires that GPO obtain an independent
compliance.
                                                              annual audit of its financial statements, which the OIG
                                                              oversees.3 KPMG LLP (KPMG) is conducting this audit
5. Assessment Report 07-10 (Issued September 28,              under a multiyear contract for which the OAI provides
2007)                                                         oversight as its Contracting Officer’s Technical Repre-
Report on Perimeter Security Assessment of a GPO              sentative (COTR). The oversight ensures that the audit
Building                                                      complies with government auditing standards. OAI also
The Federal Protective Service (FPS), an organization         assists with facilitating the external auditor’s work as
within the Department of Homeland Security, provides          well as reviewing the work performed. In addition, OAI
law enforcement and security services to the U.S. Gen-        provides administrative support to the KPMG auditors
eral Services Administration for federally owned and          and coordinates the audit with GPO management.

2                                                             3
    44 U.S.C. § 3541 et seq.                                      44 U.S.C. § 309(e).




Office of Inspector General Semiannual Report to Congress 	                                                           15
KPMG issued an unqualified opinion on GPO’s FY                has perimeter security, sound structure, and transporta-
2006 consolidated financial statements, stating that its      tion and communication capabilities that meet
financial statements were presented fairly, in all mate-      Agency needs.
rial respects, in conformity with generally accepted
accounting principles. KPMG identified several report-        With respect to project management, GPO had recently
able conditions, including (1) strengthening controls         appointed a Project Manager in order to consolidate
surrounding the billing process, (2) improving certain        responsibility for the project with one individual who
reconciliation controls, (3) improving controls over          had already begun taking steps for ensuring the proj-
recording and reporting environmental liabilities, and        ect proceeds on schedule. We brought to management’s
(4) improving general information technology con-             attention one issue concerning the opportunity to pos-
trols. KPMG made recommendations addressing each              sibly leverage state funding and financial incentives
condition and GPO management concurred with the               to assist with workforce development for employers,
recommendations.                                              including Federal Government agencies, relocating to or
                                                              operating in the state. We anticipate issuing a report on
KPMG is currently auditing the Agency’s FY 2007 con-          this audit during the next semiannual reporting period.
solidated financial statements and assessing the status       This report will address issues such as schedule, cost,
of the FY 2006 findings to determine whether they will        requirements, and human capital.
need to be reported again in the FY 2007 audit report,
along with any new findings and recommendations.              E. TeamMate Audit Software
                                                              Implementation
D. Secure Production Facility                                 The OAI has taken the initial steps during this report-
GPO is the sole source for the production, storage, and       ing period to begin implementation of Pricewater-
delivery of all U.S. passports for the DOS. The Agency        houseCoopers (PWC) TeamMate software. TeamMate
produces the passports at one facility located in Wash-       is a powerful electronic work paper package that has
ington, DC. GPO is in the process of establishing an          revolutionized the audit documentation process. Team-
alternate passport production facility outside of the         Mate will be used by OAI to increase the efficiency and
Washington, DC, area to ensure continued passport             productivity of the entire audit process including risk
production in the event of a disruption. GPO refers to        assessment, scheduling, preparation, review, report gen-
that facility as the Secure Production Facility (SPF) and     eration, and global issue tracking.
plans for it to be operational by April 1, 2008, at an
estimated cost of $41 million.                                TeamMate was designed by PWC to be used for all
                                                              types of audits, including: compliance, contract, con-
The OIG is in the process of performing an audit evalu-       trols, efficiency and regulatory reviews, financial, gov-
ating Agency planning for the SPF. The specific audit         ernment, IT, investigations, procedural, and security.
objectives are to determine if GPO planning is suffi-         TeamMate automates the entire work paper process,
cient to ensure that the SPF is delivered on schedule,        including preparation, review, report generation, and
meets GPO requirements, and meets applicable Federal          global issue tracking. During this period, the software
facility requirements.                                        and associated licenses were purchased and installation
                                                              began. We anticipate conducting staff training and ini-
In July 2007, the OIG issued a status memorandum to           tially implementing TeamMate for assignments during
GPO senior management on this assignment’s prog-              the next reporting period.
ress. In that memorandum, we state that based on the
limited work performed to that point, the OIG had not
identified any issues that would indicate the proposed
facility would not meet the needs of the GPO for
an alternate facility for passport production. The facility




16	                                                           Office of Inspector General Semiannual Report to Congress
F. Future Digital System                                                        American Systems has extensive IV&V
(FDsys)—Independent                                                        experience in the Federal sector. IV&V work
Verification and Validation                                      will determine whether system implementation is
The FDsys will be a comprehensive                             consistent with the FDsys project plan and cost plan,
information life cycle management system that will            and whether the delivered system meets GPO’s require-
ingest, preserve, provide access to, and deliver content      ments. Additionally, we will monitor development and
of all three branches of the Federal Government. The          program management practices and processes to antici-
system is envisioned as a comprehensive, systematic,          pate potential issues. Specific IV&V tasks include:
and dynamic means of preserving electronic content
free from dependence on specific hardware and/or soft-        •	 Program Management – IV&V activities regarding the
ware. It will be composed of approximately 6 solution         cost, schedule, and risk associated with development
clusters (Content Management, Content Preservation,           and implementation in order to evaluate overall pro-
Content Access, Content Delivery, Content Submission,         gram management effectiveness.
and Infrastructure), which are comprised of 25 or more
                                                              •	 Technical – IV&V activities regarding the resources,
functional areas.
                                                              system requirements, architecture and design docu-
FDsys is being developed by a joint GPO and Har-              ments, and other critical deliverables associated with
ris Corporation (Harris) team. A multiyear, multire-          FDsys development and implementation.
lease integration effort will be used to design, procure,
                                                              •	 Testing – IV&V activities regarding the Design Valida-
develop, integrate, and deploy selected technologies
                                                              tion Test Plan and test efforts performed by the imple-
and components of FDsys. Harris will create the sys-
                                                              mentation team to verify the adequacy and complete-
tem design and development, integrate various com-
                                                              ness of testing activities.
ponents, technology, and applications that support
functional FDsys functional clusters, and deliver a
                                                              G. Status of Open Recommendations
world-class information lifecycle management system.
                                                              GPO management officials made significant prog-
The OIG is responsible for IV&V work associated with          ress in implementing and closing many of the recom-
developing and implementing FDsys. We have con-               mendations identified during previous semiannual
tracted with American Systems to conduct the IV&V.            reporting periods. GPO management closed 14 open




Office of Inspector General Semiannual Report to Congress 	                                                             17
recommendations during this period. For the 33 rec-         2. Assessment Report 06-02 (Issued March 28, 2006)
ommendations still open, a summary of the finding           GPO Network Vulnerability Assessment
and recommendations, along with the status of actions
for implementing the recommendation and OIG com-            Finding
ments, follow.                                              Although GPO has many enterprise network controls in
                                                            place, improvements that will strengthen the network
1. Inspection Report AI0502 (Issued March 31, 2005)         security posture are needed. During internal testing, we
Blank Passport Product Integrity and Security Review        noted several vulnerabilities requiring strengthening of
                                                            controls. However, no critical vulnerabilities were iden-
Finding                                                     tified during external testing. Although unclassified,
The inspection revealed several weaknesses in the busi-     we consider the results of the assessment sensitive and
ness processes used for producing blank passports.          are limiting discussion of its findings. Further details
Those weaknesses included missing critical core com-        regarding assessment findings can be obtained by con-
petencies, deficient processes, and infrastructure issues   tacting the OIG.
that require GPO management attention. The OIG also
found significant deficiencies regarding manufacture of     Recommendation
blank passports, security of component products, and        The OIG made four recommendations that should
related internal controls that require GPO management       strengthen internal controls associated with the GPO
review and reengineering.                                   enterprise network. Those recommendations should
                                                            reduce the risk of compromise to GPO data and
Recommendation                                              systems. Based on corrective action management
The OIG recommended that GPO improve the busi-              took, the OIG closed one recommendation upon
ness processes used for producing blank passports that      issuance of the final report.
are relevant to all documents and operations within
GPO’s Security and Intelligent Documents (SID) opera-       Management Comments
tion. GPO’s implementation of the recommendations           GPO management concurred with each of the report’s
should lead to an improved level of security and integ-     recommendations and initiated responsive corrective
rity for the entire SID business line.                      actions.

Management Comments                                         OIG Comments
GPO management generally concurred with the report’s        GPO management provided documentation dur-
recommendations and continues to implement actions          ing this reporting period that closed one of the three
that will correct the conditions.                           open recommendations. Corrective actions for the
                                                            two remaining recommendations are in progress. The
OIG Comments                                                OIG is working with GPO management and moni-
GPO management provided documentation during                toring implementation of the remaining two open
this reporting period that closed two of the four open      recommendations.
recommendations. Management is working on imple-
menting corrective actions for the remaining two open       3. Assessment Report 06-03 (Issued March 31, 2006)
recommendations.                                            GPO Oracle Program Stakeholder Analysis

                                                            Finding
                                                            The assessment identified several vulnerabilities associ-
                                                            ated with GPO’s Oracle Program and made recommen-
                                                            dations that would mitigate risks associated with those




18	                                                         Office of Inspector General Semiannual Report to Congress
vulnerabilities. The vulnerabilities identified during        Recommendation
the assessment included (1) top management support            The report included 21 recommendations to GPO man-
not aligned with program execution; (2) inadequate            agement for strengthening controls and mitigating risks
functional and technical staffing; (3) lack of a method-      associated the vulnerabilities.
ology for organizational restructuring; (4) lack of tar-
geted performance metrics; and (5) lack of an effective       Management Comments
method for managing program progress.
                                                              GPO Management concurred with each of the
                                                              recommendations and proposed responsive corrective
Recommendation
                                                              actions.
To help ensure the Oracle Program meets the expecta-
tions of its stakeholders, the OIG made 13 recommen-          OIG Comments
dations in the areas of staffing, management alignment
and organizational restructuring, use of performance          Each of the 21 recommendations remains open as of
metrics, and management of program progress.                  the close of this reporting period. A majority of the
                                                              recommendations were made to improve future Oracle
                                                              implementations.
Management Comments
GPO management concurred with each of the report’s
recommendations and agreed to take corrective actions
throughout implementation of the project.

OIG Comments
GPO management provided documentation during
this reporting period that was sufficient to close 4 of
the 12 recommendations that remained open from the
previous reporting period. Management is continu-
ing to work on implementing corrective actions for the
remaining eight open recommendations. We anticipate
progress during the next reporting period toward clos-
ing the remaining open recommendations.

4. Assessment Report 07-01 (Issued November 20,
2006)
Report on Early Oracle Implementation: Independent
Verification and Validation (IV&V)

Finding
The OIG initiated IV&V activities beginning with two
of the early implementation projects for Oracle. The
objective of IV&V is to provide GPO with an indepen-
dent assessment of project status, satisfaction of user
needs, and project cost effectiveness. The OIG issued a
sensitive report summarizing vulnerabilities identified
during the IV&V activities.




Office of Inspector General Semiannual Report to Congress 	                                                        19
Office of Investigations (OI)                                 Procurement Fraud
                                                              The OI investigates allegations involving GPO contract
The OI conducts and coordinates investigations relating       service providers defrauding the Government in con-
to alleged or suspected misconduct and monetary or            nection with GPO’s procurement of goods and services.
material losses occurring in GPO programs and opera-          These violations generally include, but are not limited
tions. The subjects of OI investigations can be contrac-      to, false claims, false statements, wire and mail fraud,
tors, program participants, GPO management, or other          product substitution, and Small Disadvantaged Busi-
Agency employees. Special Agents in OI are Federal            ness Program violations. OI has five open cases involv-
Criminal Investigators (job series 1811).                     ing procurement fraud.

Investigators are also designated as Special Police Offi-     Employee Misconduct
cers. Investigations that uncover violations of Federal       The OI investigates allegations involving GPO
law or GPO rules or regulations may result in adminis-        employee misconduct. Allegations generally include,
trative sanctions, civil or criminal prosecution, or both.    but are not limited to, misuse of Government comput-
Prosecutions may result in court-imposed prison terms,        ers, theft, assaults, drug violations, gambling, kickbacks,
probation, fines, or restitution. OI also issues Manage-      and travel voucher fraud. OI has 11 open investigations
ment Implication Reports that identify issues uncov-          involving misconduct.
ered during an investigation it believes warrant prompt
attention by GPO management.                                  Miscellaneous
                                                              The OI investigates miscellaneous administrative alle-
A. Summary of Investigative Activity
                                                              gations and other types of investigations that do not
During this reporting period and in response to 394           fall into one of the above categories. Examples of such
new complaints or allegations, OI opened 15 investiga-        investigations include theft of Government property or
tive cases. It closed 18 cases. Twenty-eight of the inves-    illegal hacking. OI has five open cases involving miscel-
tigative matters are on-going. During this reporting          laneous matters.
period, OI obtained two search warrants and issued two
administrative subpoenas during the course of investi-        C. Status of Action on Referrals
gative efforts.
                                                              OI investigative efforts result in both external and inter-
                                                              nal referrals for action.
B. Types of Cases
The OI investigative workload includes the following
                                                              External
major categories:
                                                              OI referred seven investigative matters to the Depart-
                                                              ment of Justice (DOJ) for prosecution. Prosecutorial
Workers’ Compensation Fraud
                                                              action is pending in one matter referred in a previous
The OI investigates GPO employees who allegedly sub-          reporting period and accepted for civil prosecution
mitted false claims or made false statements to receive
workers’ compensation benefits. We are working on
                                                              Internal
seven investigations involving alleged workers’ com-
pensation fraud.                                              Five investigative matters referred to GPO management
                                                              for action remain pending. In addition, GPO manage-
                                                              ment resolved seven investigative cases from previous
                                                              reporting periods. Agency action in response to the
                                                              investigation findings included one suspension, five let-
                                                              ters of warning, and one termination from GPO
                                                              employment.




Office of Inspector General Semiannual Report to Congress 	                                                            21
                                                               The first MIR concerned visitor access policy. The OIG
                                                               recommended that the Agency review its visitor access
                                                               policy to restrict access to “official” visitors only. The
                                                               agency concurred with all recommendations set forth
                                                               in that MIR.

                                                               The second MIR concerned the shipping and storage
                                                               procedures of the security material used to create the
                                                               passports. Due to damaged shipments received by
                                                               GPO, the OIG recommended that security and stor-
                                                               age procedures for the material be strengthened. As
                                                               of the end of the reporting period, the agency has
                                                               not responded to our recommendations addressed in
                                                               that MIR.

                                                               Workers’ Compensation Fraud
                                                               An investigation into workers’ compensation fraud that
                                                               was accepted for criminal prosecution by the DOJ was
                                                               resolved during this reporting period. The employee
                                                               was convicted, sentenced to 12 months imprisonment,
                                                               two-years probation, and ordered to make restitution to
                                                               the GPO in the amount of $123,289.29.

                                                               OI’s continued pro-active, investigative approach and
                                                               its working relationship with GPO’s Health Unit and
                                                               the Office of Workers’ Compensation has resulted in
OI investigative findings were also forwarded to the           maintaining agency Sick Injured Administrative costs
appropriate Agency official for suspension, debarment,         under $20,000 per month.
or other administrative actions against Agency contrac-
                                                               OI’s investigative efforts also found that one workers’
tors. As a result of OI investigative efforts this reporting
                                                               compensation claimant had died; however, the death
period, the Agency issued two debarments and four let-
                                                               was not reported to the Department of Labor. As a
ters of warning.
                                                               result, the GPO will save $18,000 per year ($180,000
D. Investigative Accomplishments                               in actuary amount over 10 years) in compensation
                                                               payments.
Management Implication Reports (MIR)
                                                               A previous reporting period investigation of a GPO
During this reporting period, OI issued two MIRs to            employee of alleged workers’ compensation fraud
GPO management regarding the security of passport              resulted in the forfeiture of $34,623.00 of the employ-
production.                                                    ee’s compensation. Final recovery is pending any appeal
                                                               of the forfeiture.

                                                               An OI investigation into violations of the workers’
                                                               compensation program resulted in the employee being
                                                               removed from the periodic rolls because an indepen-
                                                               dent medical examination determined that he was no




22	                                                            Office of Inspector General Semiannual Report to Congress
longer injured. As a result, the agency will save $21,000     As a result of OI investigative efforts, the Agency issued
per year ($210,000 in actuary amount over 10 years) in        two debarments and four letters of warning to agency
compensation payments.                                        printing contractors.

Employee Misconduct                                           Miscellaneous
An OI investigation involving allegations of pornogra-        OI investigated several GPO Persistent Uniform
phy and other offensive materials, including child por-       Resource Locators (Internet commands that redirect
nography, resulted in the employee being terminated           users to specific websites) that linked to pornographic,
from GPO employment for violations of agency regu-            online casino, and pharmaceutical websites. Through
lations on the use of government computers and the            the course of the investigation, OI determined that the
Internet. Information regarding this matter was referred      perpetrators were from various foreign nations and,
to the Maryland State Police for any investigative mea-       therefore, was unable to pursue any judicial proceed-
sures they deem necessary.                                    ings.

A prior reporting period investigation regarding an           E. Work-In-Progress
alleged assault by a GPO Police Officer resulted in the       Several significant OI matters remain pending as of the
officer receiving a letter of warning.                        end of this reporting period. Disposition and results of
                                                              those investigations will be detailed in future reports.
An OAI referral to the OI regarding an employee who
submitted false travel vouchers and time and atten-
dance forms resulted in the employee: (1) receiving a
Letter of Warning; (2) being placed on travel restriction
for up to six months; (3) being ordered to take a train-
ing class on submitting travel vouchers; and (4) being
ordered to pay restitution in the amount of $6,511.27.

Procurement Fraud
An OI investigation of a GPO contractor and accepted
by DOJ for civil prosecution is still pending. The con-
tractor is alleged to have filed false claims and state-
ments in connection with contracts valued at approx-
imately $438,000. Civil action in this matter could
result in fines and restitutions of approximately
$1,800,000.

A previous reporting period investigation of a GPO
Region 5 contractor that allegedly submitted false
claims/statements resulted in the debarment of the con-
tractor and its officers from future GPO contracts.

An ongoing prior reporting period investigation of
a contractor regarding alleged contract fraud, false
statements, product substitution, and subcontracting
resulted in a final recovery of $1,625.




Office of Inspector General Semiannual Report to Congress 	                                                            23
APPENDIX A: GLOSSARY AND ACRONYMS


Glossary                                                   Material Weakness – A significant deficiency, or com-
                                                           bination of significant deficiencies, that results in more
Allowable Cost - A cost necessary and reasonable for       than a remote likelihood that a material misstatement
the proper and efficient administration of a program or    of the financial statements will not be prevented or
activity.                                                  detected.

Change in Management Decision - An approved                Questioned Cost - A cost the IG questions because
change in the originally agreed-upon corrective action     of an alleged violation of a law, regulation, contract,
necessary to resolve an IG recommendation.                 cooperative agreement, or other document governing
                                                           the expenditure of funds; such cost is not supported by
Disallowed Cost - A questionable cost arising from an      adequate documentation; or the expenditure of funds
IG audit or inspection that management decides should      for the intended purposes was determined by the IG to
not be charged to the Government.                          be unnecessary or unreasonable.

Disposition - An action that occurs from manage-           Recommendation - Actions needed to correct or elimi-
ment’s full implementation of the agreed-upon cor-         nate recurrence of the cause(s) of the finding(s) identi-
rective action and identification of monetary benefits     fied by the IG to take advantage of an opportunity.
achieved (subject to IG review and approval).
                                                           Resolution - An agreement reached between the IG and
Final Management Decision - A decision rendered            management on the corrective action(s) or upon ren-
by the GPO Resolution Official when the IG and the         dering a final management decision by the GPO Reso-
responsible GPO manager are unable to agree on             lution Official.
resolving a recommendation.
                                                           Resolution Official – The GPO Resolution Official is
Finding - Statement of problem identified during an        the Deputy Public Printer.
audit or inspection typically having a condition, cause,
and effect.                                                Resolved Audit/Inspection - A report containing rec-
                                                           ommendations that have all been resolved without
Follow-up - The process that ensures prompt and            exception, but have not yet been implemented.
responsive action once resolution is reached on an IG
recommendation.                                            Unsupported Costs - Questioned costs not supported
                                                           by adequate documentation.
Funds Put To Better Use - An IG recommendation that
funds could be used more efficiently if management
took actions to implement and complete the audit or
inspection recommendation.

Management Decision - An agreement between the IG
and management on the actions taken or to be taken to
resolve a recommendation. The agreement may include
an agreed-upon dollar amount affecting the recommen-
dation and an estimated completion date unless all cor-
rective action(s) is completed by the time agreement is
reached.




24	                                                        Office of Inspector General Semiannual Report to Congress
Abbreviations and Acronyms                                    IG 	       Inspector General

AICPA	American Institute of Certified                        IG Act	    Inspector General Act of 1978
       Public Accountants
                                                              IOC	       Incremental Operating Capabilities
CA	            Certification Authority
                                                              IPA	       Independent Public Accountant
COOP	          Continuity of Operations
                                                              IT&S	      Information Technology and Systems
COTR	Contracting Officers Technical
      Representative                                          IV&V	      Independent Verification and Validation

DHS/CBP	Department of Homeland Security                      JCP	       Joint Committee on Printing
         Customs and Border Patrol
                                                              MMAR	Materials Management Acquisition
DOJ	           Department of Justice                                Regulation

DOS	           Department of State                            OAI	       Office of Audits and Inspections

ECIE	Executive Council on Integrity                          OEP	       Occupant Emergency Plan
      and Efficiency
                                                              OI	        Office of Investigations
FDLP	          Federal Depository Library Program
                                                              OIG	       Office of Inspector General
FDsys	         Future Digital System
                                                              PCIE	President’s Council on Integrity and
FIPS-201	Federal Information Processing                            Efficiency
          Standard Publication 201
                                                              PKI	       Public Key Infrastructure
FISMA	Federal Information Security
       Management Act                                         SAS	       Statement on Auditing Standards

FSA	           Financial Statement Audit                      SID	       Security and Intelligent Documents

FY	            Fiscal Year                                    SOW	       Statement of Work

GAGAS	Generally Accepted Government                          SPF	       Secure Production Facility
       Auditing Standards
                                                              SSA	       Social Security Administration
GPO	           U.S. Government Printing Office

GPRA	          Government Performance Results Act

HSPD-12	Homeland Security Presidential
         Directive-12




Office of Inspector General Semiannual Report to Congress 	                                                        25
APPENDIX B: INSPECTOR GENERAL ACT REPORTING REQUIREMENTS



 Inspector General Act                                                                       Cross-Reference
                         Requirement Definition
 Citation                                                                                    Page Number(s)


 Section 4(a)(2)         Review of Legislation and Regulations                                  	        5

 Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies                         	    7–11
                                                                                                    13–15


 Section 5 (a)(2)        Recommendations for Corrective Actions                                 	   13–15


 Section 5(a)(3)         Prior Audit Recommendations Not Yet Implemented                        	       17


 Section 5(a)(4)         Matters Referred to Prosecutorial Authorities                          	       21


 Section 5(a)(5)         Summary of Refusals to Provide Information                             	     N/A

                         OIG Audit and Inspection Reports Issued (Includes total
 Sections 5(a)(6) and
                         dollar values of Questioned Costs, Unsupported Costs, and              	   13–15
 5(a)(7)
                         Recommendations that Funds Be Put To Better Use)
                         Statistical table showing the total number of audit reports and
 Section 5(a)(8)                                                                                	       27
                         the total dollar value of questioned costs

                         Statistical table showing the total number of audit reports
 Section 5(a)(9)         and the total dollar value recommendations that funds be               	       29
                         put to better use

                         Summary of prior Audit and Inspection Reports issued for
 Section 5(a)(10)                                                                               	     N/A
                         which no management decision has been made
                         Description and explanation of significant revised
 Section 5(a)(11)                                                                               	     N/A
                         management decision
                         Significant management decision with which the Inspector
 Section 5(a)(12)                                                                               	     N/A
                         General is in disagreement




26	                                                      Office of Inspector General Semiannual Report to Congress
APPENDIX C: STATISTICAL REPORTS

Table C-1: Audit Reports with Questioned and Unsupported Costs

                                                              Questioned   Unsupported   	   Total
 Description
                                                              Costs        Costs




 Reports for which no management decision
                                                              	     $0     	      $0     	       $0
 made by beginning of reporting period




 Reports issued during reporting period                       	$347,247    	 $240,687    	$587,934



 Subtotals                                                    	$347,247    	 $240,687    	$587,934



 Reports for which a management
 decision made during reporting period

 1. Dollar value of disallowed costs                          	     $0     	      $0     	       $0

 2. Dollar value of allowed costs                             	     $0     	      $0     	       $0



 Reports for which no management decision
 made by end of reporting period                              	     $0     	      $0     	       $0



 Reports for which no management decision
 made within 6 months of issuance                             	     $0     	      $0     	       $0




Office of Inspector General Semiannual Report to Congress 	                                          27
Table C-2: Audit Reports with Recommendations for Funds That Can Be Put to Better Use

                                                        Number of                       Funds Put To
 Description
                                                        Reports                         Better Use




 Reports for which no management decision made by
                                                        	    0                          	     $0
 beginning of reporting period




 Reports issued during the reporting period             	    0                          	     $0




 Reports for which a management decision made           	
 during reporting period

 • Dollar value of recommendations agreed to by
      management                                        	    0	                         	     $0

 • Dollar value of recommendations not agreed to
      by management                                     	    0                          	     $0




 Reports for which no management decision made
                                                        	    0                          	     $0
 by the end of the reporting period


 Report for which no management decision made
                                                        	    0                          	     $0
 within 6 months of issuance




28	                                                 Office of Inspector General Semiannual Report to Congress
Table C-3: List of Audit and Inspection Reports Issued During Reporting Period


 Audit Reports                                                       Funds Put To Better Use



 Report on GPO Oracle Release 2 Project—Review
 of Statement of Work
 (Assessment Report Number 07-06, issued 05/09/07)                   	            $0


 Report on WebTrust Assessment of GPO’s
 Certification Authority—Attestation Report
 (Assessment Report Number 07-07, issued 09/17/07)                   	            $0



 Report on Audit of Revised Settlement Proposal
 by [GPO Contractor]
 (Audit Report Number 07-08, issued 09/19/07)                        	     $587,934


 Report on GPO’s Compliance with the Federal Information
 Security Management Act
                                                                     	            $0
 (Assessment Report Number 07-09, issued 09/27/07)



 Report on Perimeter Security Assessment of Government
 Printing Office (GPO) Building 4
                                                                     	            $0
 (Assessment Report Number 07-10, issued 09/28/07)




 Total                                                               	     $587,934




Office of Inspector General Semiannual Report to Congress 	                                    29
Table C-4: Investigations Case Summary


 Cases Open at Beginning of Reporting Period                                               	       31




 Total New Hotline / Other Complaints Received during SAR Period                           	     394




 Cases Opened by OI                                                                        	       15




 Cases Closed during Reporting Period                                                      	       18




 No Formal Investigative Action Required                                                   	     379




 Cases Open at End of Reporting Period	                                                    	       28



 • Cases Referred to GPO Management                                                        	        5



 • Cases Referred to Other Agencies                                                        	        1



 • Cases Referred to Office of Audits and Inspections                                      	        0




30	                                                     Office of Inspector General Semiannual Report to Congress
 Current Case Openings by Allegation                                            	28


 • Contract and Procurement Fraud                                               	5        	 18%


 • Employee Misconduct                                                          	11       	 39%


 • Workers’ Compensation Fraud                                                  	7       	 25%


 • Miscellaneous                                                                	5       	 18%




                                                              ■ Workers’ Compensation Fraud

                                                              ■ Contract and Procurement Fraud

                                                              ■ Employee Misconduct

                                                              ■ Miscellaneous




Office of Inspector General Semiannual Report to Congress 	                                       31
Table C-5: Investigations Productivity Summary

 Arrests                                                                                    	                  0

 Total Cases Presented to Prosecuting Authorities                                           	                  8

 Criminal                                                                                   	                  8

 Criminal Declinations                                                                      	                  7

 Convictions                                                                                	                  1

 Guilty Pleas                                                                               	                  0

 Probation (days)                                                                           	               730

 Jail Time (days)                                                                           	               365

 Restitutions                                                                               	        $129,800

 Civil                                                                                      	                  0

 Civil Declinations                                                                         	                  0

 Amounts Recovered Through Investigative Efforts                                            	           $1,625

 Total Agency Cost Savings Through Investigative Efforts                                    	      ~ $390,000

 Total Administrative Referrals                                                             	                  5

 Contractor Debarments                                                                      	                  2

 Contractor Suspensions                                                                     	                  0

 Contractor Other Actions                                                                   	                  4

 Employee Suspensions                                                                       	                  1

 Employee Terminations                                                                      	                  1

 Employee Warned/Other Actions                                                              	                  5

 Other Law Enforcement Agency Referrals                                                    	                   1




32	                                                        Office of Inspector General Semiannual Report to Congress
Office of Inspector General

732 North Capitol Street, NW
Washington, D.C. 20401

202.512.0039
inspectorgeneral@gpo.gov
www.gpo.gov/oig

OIG Hotline 1.800.743.7574
